DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General



              Review of the
     Buffer Zone Protection Program




OIG-07-59                         July 2007
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                          July 16, 2007

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibility to promote economy, effectiveness, and efficiency within the department.


This report addresses the actions DHS has taken to identify Buffer Zone Protection Program assets
and the adequacy of eligibility criteria used to determine investments at critical infrastructure and
key resource sites. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, quantitative analysis, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Table of Contents

  Executive Summary .........................................................................................................................1

  Background ......................................................................................................................................2

  Results of Review ............................................................................................................................5

          Challenges With Initial Site Selection and Size of Grant Award ...........................................6

          DHS Improved its Site Selection Methodology and Funding Approach..............................12

          Thorough Review of Selected Equipment is Needed ...........................................................14

          Other Factors Affecting Program Administration ................................................................20

  Management Comments and OIG Analysis ..................................................................................29

Appendices
  Appendix A:            Purpose, Scope, and Methodology .......................................................................38
  Appendix B:            Management Response to Draft Report ...............................................................39
  Appendix C:            BZP - VRPP Equipment Selection Comparison ..................................................48
  Appendix D:            Major Contributors to This Report.......................................................................49
  Appendix E:            Report Distribution...............................................................................................50




                                            Review of the Buffer Zone Protection Program
Table of Contents

Abbreviations
  BZPP          Buffer Zone Protection Program
  BZP           Buffer Zone Plan
  CI/KR         Critical Infrastructure/Key Resource
  DHS           Department of Homeland Security
  FEMA          Federal Emergency Management Agency
  G&T           Office of Grants and Training
  NPPD          National Protection and Programs Directorate
  OIG           Office of Inspector General
  PSA           Protective Security Advisor
  RMD           Risk Management Division
  VRPP          Vulnerability Reduction Purchase Plan




                            Review of the Buffer Zone Protection Program
OIG
Department of Homeland Security
Office of Inspector General


Executive Summary
                The Buffer Zone Protection Program (BZPP) supports the implementation of
                preventive and protective measures outside the perimeter of selected critical
                infrastructure and key resource (CI/KR) sites throughout the United States.
                Buffer zone plans (BZPs) define supplemental security areas outside the
                CI/KR site perimeter and recommend preventive and protective measures
                designed to make it more difficult for terrorists to conduct surveillance or
                launch attacks. The BZPP provides funding to responsible jurisdictions to
                purchase equipment to extend the zone of protection around CI/KR facilities,
                expand preparedness capabilities, and enhance the security of surrounding
                communities.

                The Department of Homeland Security (DHS) has made numerous
                modifications to the program since its inception in 2004 to solve
                administrative challenges stemming from the involvement of multiple
                agencies, co-management of the program within DHS, the complexity of the
                BZP development and submission process, and unclear program requirements.
                These factors, as well as state and local procurement processes and
                procedures, initially slowed the delivery of equipment to responsible
                jurisdictions and have kept spending at a deliberate pace. As of November
                2006, state grantees had expended $19.6 million or 21% of the $91.3 million
                in available funding. As of April 2007, state grantees had expended $36
                million, or 40%.

                Program managers continue to enhance the program and unify efforts to
                protect CI/KR assets and combat terrorism. Accordingly, we resolved all 12
                recommendations to DHS to strengthen the site selection and BZP submission
                process; improve communication among the state agencies, local participants,
                and DHS offices; and, better define roles and responsibilities of the DHS
                offices managing the program. We are closing six recommendations and
                requesting that DHS provide additional evidence of corrective actions taken to
                satisfy the remaining six recommendations.




                         Review of the Buffer Zone Protection Program
                                             Page 1
Background
                           The Homeland Security Act of 2002 assigned DHS foremost responsibility for
                           establishing a national approach and protecting the United States against
                           terrorist attacks and other disasters. The 2003 Homeland Security Presidential
                           Directive: Critical Infrastructure Identification, Prioritization, and Protection
                           (HSPD-7) established a national policy for federal departments and agencies
                           to identify and prioritize critical infrastructure and key resource sectors.
                           These documents stipulate that DHS work closely with federal departments
                           and agencies, state and local governments, and the private sector to produce a
                           National Infrastructure Protection Plan that provides an overarching approach
                           for integrating CI/KR protection initiatives into a single national effort. Now
                           located organizationally under the newly created National Protection and
                           Programs Directorate (NPPD), the Office of Infrastructure Protection within
                           DHS is responsible for protecting the Nation’s critical infrastructure and key
                           resources, and for implementing the plan.1

                           Since its inception, DHS has channeled considerable resources to a broad
                           range of infrastructure protection activities undertaken at national, state, and
                           local levels. In March 2004, the Office of Infrastructure Protection’s Risk
                           Management Division (RMD) launched the BZPP as a $50 million equipment
                           loan program designed to focus terrorism detection and prevention efforts at
                           high-priority CI/KR sites. This was done according to the DHS Secretary’s
                           grant authority in section 102(b)(2) of Homeland Security Act of 2004. The
                           Secretary delegated financial assistance authority to the then Under Secretary
                           of Information Analysis and Infrastructure Protection on November 13, 2004.
                           Responsible jurisdictions selected security equipment to extend the zone of
                           protection beyond the gates of facilities such as chemical plants, nuclear
                           facilities, dams, and commercial and public facilities (see Figure 1). DHS
                           purchased the equipment and loaned it to the responsible jurisdiction for a 1-
                           year period.




1
  See the National Infrastructure Protection Plan and the 17 critical infrastructure and key resource sectors at
http://www.dhs.gov/xprevprot/programs/editorial_0827.shtm.




                                       Review of the Buffer Zone Protection Program
                                                           Page 2
                          Figure 1: Aerial View BZPP Site




Described as a surgical approach to protecting CI/KR, the goal of the BZPP is
to provide funding for the purchase of equipment that will:

   •   Devalue a target by making it less attractive or too costly to attack;
   •   Deter an event from happening;
   •   Detect an aggressor planning or committing an attack, or the presence
       of a hazardous device or weapon; and
   •   Defend against attack by delaying or preventing an aggressor’s
       movement toward the asset, or the use of weapons and explosives.

Initially, the Office of Infrastructure Protection focused efforts on the 1,849
CI/KR sites known as the Protective Measures Target List and funded each
site equally at $50,000 per site. It identified BZPP sites in all 50 states, the
District of Columbia, and three territories. The 1,849 BZPP sites were more
representative of CI/KR assets from the commercial, chemical/hazardous
material, and energy sectors, with relatively few sites represented from the
agriculture and food, emergency services, dams, and telecommunications
sectors (see Figure 2). To determine appropriate equipment purchases,
responsible jurisdictions were asked to perform vulnerability assessments of
each BZPP site. They worked with security personnel and facility managers
to conduct a vulnerability assessment, identify mitigation equipment, and
develop a BZP. Following DHS approval of the plan, responsible




         Review of the Buffer Zone Protection Program
                             Page 3
jurisdictions were authorized to select specific equipment, primarily
surveillance-related.

                      Figure 2: BZPP Sites by Sector

                                     Commercial
                                      Facilities                       Ag/Food, dams,
                                                                       defense industrial
                                                                       base, emergency
                                                                       services, IT,
                                                                       national
                                         46 %                          monuments,
                                                                       postal/shipping,
                                                                       Communications
                                                                       3%

                           14 %                              3%
     Chemical &
       Haz/Mat                                               1%        Public
                                                   13 %
                                                                       Health 1%
                                7%
                                     7% 5%                              Energy
      Government
         Facilities                                                    Water & Water
                                                 2%
                                                2%                     Treatment
                                                                       Systems 2%

               Transportation        Nuclear reactors,     Banking &
                  Systems            materials & waste    Finance 2%



During 2004, RMD staff established and managed the BZP document
development and submission process, conducted outreach to the state
homeland security agencies and responsible jurisdictions, and responded to
the states’ site selection concerns. Procurement of the requested security
equipment was managed under a contract arrangement with the Department of
Energy’s National Energy Technology Lab. Under this arrangement, 38
responsible jurisdictions received equipment.

In early 2005, RMD converted the BZPP into a grant program. RMD retained
responsibility for the technical review and approval of BZPs and equipment
requested by the responsible jurisdiction in Vulnerability Reduction Purchase
Plans (VRPP). The Office of Grants and Training (G&T) assumed
responsibility for executing the grants. In March 2007, the Federal
Emergency Management Agency’s (FEMA) Office of Grants Management
assumed responsibility for executing the BZPP grant program. Preparedness
Officers and BZPP program managers within G&T were transitioned to
FEMA, within the National Preparedness Directorate’s Capabilities Division.




          Review of the Buffer Zone Protection Program
                              Page 4
               RMD was reorganized into NPPD’s Protective Security Coordination Division
               in March 2007.

               In March 2005, DHS announced the availability of $91.3 million in BZPP
               grant funding to continue efforts to protect areas surrounding the 1,849 CI/KR
               sites originally selected for the program. These funds were the combination
               of $41.3 million remaining from the 2004 equipment loan program and an
               additional $50 million for 2005.

               G&T released the 2006 BZPP Program Guidance and Application Kit in
               September 2006. In January 2007, DHS released the 2007 version, which
               reflects a new emphasis on building and supporting state and local capabilities
               to develop and implement homeland security support programs by adopting
               ongoing DHS national initiatives. Through more focused planning and
               equipment purchases and targeting more specific types and limited numbers of
               CI/KR sites, the 2007 BZPP intends to continue supporting (1) the prevention,
               protection, response and recovery objectives of the National Preparedness
               Goal, and (2) the prevention, detection, and deterrence mission areas of the
               National Infrastructure Protection Plan.


Results of Review
               DHS is making strides toward meeting its BZPP program goals and
               establishing a unified national effort to protect CI/KR assets and combat
               terrorism. Since the program’s inception in 2004, DHS has addressed several
               issues that have inhibited the program including:

                    •   Determining the type and number of sites to participate;
                    •   Determining the amount of money to be allotted per site;
                    •   Defining the method used to assess site vulnerability;
                    •   Determining the allowable equipment and planning expenditures;
                    •   Submission and processing of program materials; and,
                    •   Defining the grant requirements.

               These adjustments are helping the program achieve its intended results.

               We commend RMD for transitioning the 2004 BZPP Equipment Loan
               Program into a grant program under a partnership with G&T. Additionally,
               states and responsible jurisdictions have applauded DHS for providing



                         Review of the Buffer Zone Protection Program
                                             Page 5
              tangible benefits beyond the provision of protective security equipment.
              Program participants said BZPP has brought federal, state and local entities,
              and the private sector “to the table” on the CI/KR protection issue. The
              program has identified common objectives, stimulated coordination of
              prevention and protection activities, and highlighted the skills and processes
              necessary to assess CI/KR vulnerabilities and recommend protective
              measures. These accomplishments are value-added benefits that were either
              not in place or not functioning well prior to creation of the BZPP program.

              However, as of November 2006, approximately 79% of the $91.3 million
              BZPP grant funds had not yet been expended. As recently as April 2007, 60%
              remained to be drawn down by states for disbursement to responsible
              jurisdictions for equipment purchases. Although program managers have
              initiated improvements in the site selection, BZP development and submission
              process, and have increased funding amounts available to each site, issues
              involving the implementation and administration of the program remain. The
              areas that DHS must continue to improve are the vetting of sites with state
              offices, timely distribution of funds, and the selection of appropriate security
              equipment. DHS must also address the processing and approval of BZPs,
              communication between its sub-components and with program participants,
              and the roles and responsibilities of those sub-components administering the
              program.


Challenges with Initial Site Selection and Size of Grant Award
              The process of selecting sites delayed BZP submission and approval, proving
              to be the biggest obstacle that program managers faced during early BZPP
              implementation. In addition, the decision to cap funding at $50,000 per site
              dampened responsible jurisdiction interest in the program, led some to drop
              out of the program, and further complicated and delayed grant awards.
              Modifying the program to eliminate those issues was time consuming for
              program managers and frustrating and confusing for grantees.

              RMD Had to Replace Many Selected Sites

              RMD derived the initial 1,849 BZPP sites from the Protective Measures
              Target List developed by DHS at the request of Congress in 2003. RMD
              officials acknowledged that DHS’ methodology was simple: it identified




                       Review of the Buffer Zone Protection Program
                                           Page 6
assets based on perceived threats and consequences as opposed to a risk-based
formula.

In preparation for the BZPP program, RMD began to assemble additional data
on CI/KR sites during early 2004. However, their method to collect data from
states and responsible jurisdictions was not well organized. RMD described
this process as “rushed” and “ad hoc.” When issuing data calls, RMD did not
inform all of the state homeland security offices of specific CI/KR priorities or
clearly define a potential terrorist target. This confused and delayed the data
collection process at the state and local level and led to inconsistent results.
During 2004, 38 jurisdictions responsible for 45 sites received equipment
under the loan program prior to the transition of the BZPP to a grant program.
Delays in the procurement process managed by the National Energy
Technology Laboratory were also an issue in the slow delivery of equipment.

Some state officials said DHS did not provide sufficient time to verify
location, jurisdiction, ownership, and other details on the facilities. For
example, DHS asked California’s State Homeland Security Agency to verify
detailed information from multiple sources for over 250 sites in less than 90
days. The state agency sent the site list for verification to the responsible
jurisdictions, which were in turn given 2 weeks to gather data on or visit as
many as 25 sites in each jurisdiction.

Program managers selected sites to ensure wide geographic coverage across
the spectrum of CI/KR. The 2004 site list had a strong focus on commercial
sites based upon the prevailing threat vector at the time. States and
responsible jurisdictions questioned how RMD identified and selected sites,
and did not always concur that the sites RMD chose were CI/KR priorities.
Each of the states we visited identified: (1) other higher priority sites—dams,
bridges, and electrical substations—that better met the CI/KR criteria but were
not included on the BZPP site list, and (2) sites from the original list of 1,849
that were either non-existent, non-operational, or of questionable significance.
These included planned but un-built shopping malls, closed chemical plants,
and seasonal theme parks without large volumes of visitors. One state official
questioned why a lightly frequented seasonal water park was on the list when
a large dam near the state capital was not. Another state official questioned
the rationale for selecting a shopping mall over a water filtration plant that
provides nearly 50% of the water for the northern region of the state.




         Review of the Buffer Zone Protection Program
                             Page 7
Throughout 2005, the inclusion of non-existent and questionable sites on the
BZPP national list compelled states to renegotiate with RMD to replace
original sites. This was not unreasonable given DHS’ limited knowledge of
these sites, and the inadequacy of the site selection methodology DHS used in
2004 to select them. However, the negotiation process was time consuming,
further delaying the BZP and VRPP development and submission process.
Site substitution took place in all five states in which we conducted our
fieldwork; one state ultimately replaced 30% of its original BZPP site list.
The process generally involved a discussion between the state homeland
security agency and RMD, detailing why the original site was inappropriate
and what site should be substituted. RMD retained the final approval
authority.

Due to insufficient documentation regarding the process and criteria for
replacing sites, and the number of sites replaced, we were unable to determine
whether replacement sites met the same standards for selection as those
originally included in the program, or whether replacement decisions were
uniform across all states. For instance, with RMD approval, federal
government facilities were removed from some states’ 2005 and 2006 BZPP
site lists but were represented in other state lists. Some of the responsible
jurisdictions we visited said that federal sites should be removed from the
BZPP list because: (1) states do not have jurisdiction over federal property;
(2) responsible jurisdictions are often not the first emergency response units;
and (3) responsible jurisdictions do not have ready site access to perform
vulnerability assessments.

Although the 2007 BZPP grant guidance includes a prohibition that funds may
not be used for the improvement of federal government buildings or for other
activities solely benefiting the federal government, it does not entirely
preclude responsible jurisdictions from receiving funding to protect a federal
site. Without clarification that BZP funds may be used to fund federal sites
that DHS has determined to be eligible for the program state agencies and
responsible jurisdictions could still become confused about the status of
federal facilities in the BZPP program.

Both DHS and state officials have had difficulty tracking the substitution and
addition of BZPP sites. Preparedness Officers need reliable and up-to-date
information on the number of outstanding BZPs and VRPPs in order to review
and approve them efficiently. Preparedness Officers responsible for
processing in-coming BZPs from the states said they were not always




         Review of the Buffer Zone Protection Program
                             Page 8
informed when RMD substituted a site. Many Preparedness Officers, as late
as July 2006, did not have reliable data on the sites RMD had approved for
their assigned states. Some Preparedness Officers commented that since there
was no reliable documentation on sites replaced or added by RMD, the only
way to identify the BZPs still to be submitted was by regular checks with the
state homeland security agencies.

There was no formal deadline established for 2005 BZP and VRPP
submission, which resulted in additional delays. Grant announcements were
not made until the end of the fiscal year when RMD program managers
distributed the site list in March 2005 and asked states to submit BZPs and
VRPPs to G&T by September 30, 2005. However, some states did not finish
replacing sites and establishing their final site lists until the end of November
2005. For example, California did not finalize its site list until October 2005.
The District of Columbia, which DHS authorized to replace approximately
50% of its original BZPP sites, did not complete its BZPP list until November
2005. In Illinois, as of June 2006, responsible jurisdictions were still initiating
BZP and VRPPs for new sites that had been added to the BZPP list. Program
officials learned from the 2005 process and implemented submission
deadlines in 2006 and 2007.

The Size of the Grant Award Limited Equipment Purchases and Dissuaded
Participants

Program managers established a maximum allocation of $50,000 per site for
the BZPP program. Along with implementing protective measures in the
form of equipment purchases, RMD said its goal was to spread funding to
many infrastructure sectors and generate wide interest at the local level.
However, dividing the funds equally had the opposite effect in some states.

First, awarding responsible jurisdictions $50,000 per site resulted in small
equipment purchases, which in many instances did little to address the range
of vulnerabilities identified at many sites. Second, this amount of funding was
a disincentive to site owners or operators, states, and responsible jurisdictions,
particularly those with limited resources. The funding was often considered to
be inadequate for the amount of work required to conduct site vulnerability
assessments and prepare BZPs. While some responsible jurisdictions with
multiple sites were able to combine grants to purchase higher cost equipment,
this option was not available to many jurisdictions with single sites.




         Review of the Buffer Zone Protection Program
                             Page 9
Some of the smaller responsible jurisdictions lacked the personnel necessary
to do the site assessments and prepare BZPs, which we estimate, on average,
took 200 hours per site to complete. Even some of the larger state agencies
and responsible jurisdictions said they had difficulty identifying available,
competent staff to take on the required work under the short time frames
required. In addition, some site owner/operators were concerned about the
exchange of security-sensitive or proprietary business information. For
instance, one state estimated that 30 responsible jurisdictions from among the
89 selected sites did not want to participate and were ultimately replaced with
other sites. Another state with just eight BZPP sites initially responded that it
did not have sufficient resources required to meet program requirements, and
agreed to participate only when RMD announced that it might withdraw
funds.

All of the states we visited had one or more sites that were dropped from the
program due to low interest, and other sites proposed by that state
subsequently replaced those sites. State officials reported that for any BZPP
sites where participation was ruled out for whatever reason, RMD allowed the
state to offer replacement sites.

Program managers were not prepared for a pervasive “dropout” problem that
reached 30% in one state we visited. They acknowledged that $50,000 was
“insufficient motivation for counties to engage in the program at the local
level with any enthusiasm.” They also acknowledged the amount of work
required to complete site assessments and prepare BZP and VRPP
submissions. An unfortunate result of BZPP “dropouts” is that CI/KR sites
that RMD considered high priority assets were abandoned and protective
measures might still be needed around these locations. Additionally, the
dropout and replacement issue creates a question as to whether 2004 and 2005
BZPP grant monies were awarded according to critical infrastructure
priorities.

In response, program managers have improved the site selection methodology,
and they have directed larger amounts of funding to fewer sites. DHS also
increased allowable administrative and management costs from 3% to 5% of
the grant award, which should help support the workload required to complete
site assessments and BZPs. Additionally, program managers addressed site
owner/operator concerns about the exchange of security sensitive or
proprietary business information. States may voluntarily submit information




         Review of the Buffer Zone Protection Program
                            Page 10
contained in a BZP under the Protected Critical Infrastructure Information
(PCII) Program.

Many States Have Yet to Disburse BZPP Funds

The 2005 BZPP grant guidance did not require states to disburse funds within
a specific timeframe after the grant award date. DHS grant programs usually
require disbursement of funds within 90 days of the end of the grant’s
performance period. For example, DHS’ two largest grant programs, the State
Homeland Security Grant Program and the Urban Area Security Initiative,
both require drawdowns to be made within 90 days or less. The revised 2006
BZPP guidance required that state administrative agencies obligate funds
within 60 days of the approval notification for the VRPP. Within that 60-day
timeframe, the state administrative agency must submit a certification that
funds have been passed through to local units of government.

DHS awarded $91.3 million to states under the FY 2005 BZPP. As of
November 2006, states had drawn down 21% of the $91.3 million with 13
states yet to draw down any funds at all and only one state, Montana - with six
sites, had completely expended all obligated BZPP funds. As of April 2007,
approximately 60% of the $91.3 million remained to be drawn down and only
three states - South Dakota, Wyoming, and Montana - had completely
expended their obligated amounts. Seven states still have not drawn down
any BZPP funds as of April 2007. Many responsible jurisdictions are
frustrated that they have not received funding so they can acquire requested
equipment. We found two instances where the responsible jurisdiction waited
more than two years for the state to make funds available for equipment
originally requested under the 2004 Equipment Loan Program. Some delays
in drawdown and expenditure can be attributed to the individual states and
their administrative and procurement processes. Additionally, program
managers said that delays have occurred because some states or responsible
jurisdictions have not been proactive in correcting rejected plans and that they
have waited up to a year or more for requested revisions.




         Review of the Buffer Zone Protection Program
                            Page 11
                We recommend that the Under Secretary for National Protection and
                Programs:

                Recommendation 1: Verify all future BZPP site data with applicable state
                homeland security or equivalent agencies and establish standard procedures
                for the state agencies to substitute BZPP sites.

                Recommendation 2: Ensure that the BZPP grant guidance explicitly states
                that funding may be used to secure buffer zones surrounding federal facilities.

                Recommendation 3: Establish a deadline for processing all remaining 2005
                BZPs.


DHS Improved its Site Selection Methodology and Funding Approach

                Unlike the 2004 and 2005 BZPP site selection process, RMD applied a more
                comprehensive and risk-based approach to select 2006 BZPP sites. RMD also
                selected fewer sites so that it could allocate more money to higher priority
                sites. Additionally, RMD launched a separate BZPP grant program to
                mitigate vulnerabilities at chemical facilities.

                The 2006 BZPP grant guidance stipulates that selected sites would be “the
                most at-risk critical infrastructure based on an analysis of consequence and
                available vulnerability data.” The analysis entails risk calculations for all risk-
                and need-based grant programs directed to states, cities, and select
                infrastructures based on a common, scalable model. RMD employs its
                Terrorism Risk Model to conduct this analysis. The Terrorism Risk Model
                uses consequence, vulnerability, and threat to estimate the relative risk of a
                successful terrorist attack on a given asset. The sum of the risk plus the
                geographic location provides RMD with the Total Risk relative to a state, city,
                port, transit system, or other infrastructure type.

                RMD worked with the federal agencies implementing sector-specific plans in
                support of the National Infrastructure Protection Plan to develop a list of
                BZPP sites for each sector. They also incorporated data collected from the
                states. For the model, RMD employed two types of risk analysis to the sites:
                site-specific and overall risk. The site-specific analysis focused on a site and
                the surrounding area to determine the degree of regional or cross-jurisdictional
                consequence if lost or disrupted.



                         Review of the Buffer Zone Protection Program
                                            Page 12
A vulnerability and threat analysis for the site was then conducted to evaluate
how likely it would be for an attacker to successfully assault the site. Overall
risk analysis combined asset-based risk and geographically based risk to
ensure the BZPP reduced risk to a broad array of at-risk assets. Asset-based
risk is a function of the risk of terrorism to potential targets within a
geographic area. Geographically based risk is derived from certain prevailing
attributes or characteristics intrinsic to each geographical area that may
contribute to its risk of terrorism. Together, asset-based and geographically
based risk analysis provided an estimate of the total terrorism risk to a given
region, evaluation of risk to assets within a state, and degree of risk as it
relates to the unique characteristics of each state.

The two-pronged approach enabled RMD to divide 2006 BZPP sites into three
tiers:

   •   Tier One consists of sites that RMD determined would have
       “monumental consequence” if attacked, are considered mandatory for
       the program, and are eligible for funding up to $1 million each.
       Although RMD identified approximately 25 sites in the Tier One
       category, only about half will be funded under the 2006 BZPP, as the
       rest were already funded by other DHS grant programs.

   •   Tier Two contains sites that RMD determined to be “high-
       consequence” infrastructure within certain sectors, or sites on which
       intelligence has indicated the possibility of an attack. Responsible
       jurisdictions surrounding these sites are eligible for up to $189,000 for
       each site. States will be able to select Tier Two sites for funding from
       a larger, state-specific site list developed by RMD. For example, if a
       state has 20 sites determined by RMD to be eligible for BZPP funds,
       but the program can fund only 8 of the 20, states must choose which 8
       to fund.

   •   Tier Three consists of the remaining BZPP sites. For FY 2006, RMD
       has decided to fund approximately 200 Tier One and Two sites, but no
       Tier Three sites. RMD believes a number of Tier Three sites may be
       addressed through funds provided to nearby Tier One and Tier Two
       sites.




         Review of the Buffer Zone Protection Program
                            Page 13
                Some state officials said that during 2005, they were minimally involved in
                the BZPP site identification efforts. RMD officials said that states would
                assist in the selection of 2006 BZPP sites. As promised, RMD employed a
                more consultative and structured approach by permitting states to vet and
                prioritize the sites. RMD’s decision to give states more input resulted in the
                inclusion of more priority CI/KR sites. It is important to note that while states
                want to assist DHS with the selection of CI/KR sites, many state homeland
                security agencies have not yet developed a risk assessment framework to
                guide the prioritization and selection of Tier Two BZPP sites.

                Many Tier One and Tier Two sites are chemical facilities. DHS is the sector-
                specific agency responsible for securing the chemical sector. Due to the high-
                risk nature of this sector and the need to focus resources directly at it, DHS
                initiated the Chemical Sector Buffer Zone Grant Program. For 2006, DHS is
                providing an additional $25 million to mitigate vulnerabilities within DHS-
                identified chemical regions. By removing these sites from the general BZPP,
                DHS ensured additional funding for general BZPP sites. DHS will be better
                able to coordinate its resources to protect chemical sector sites.

                We recommend that the Under Secretary for National Protection and
                Programs:

                Recommendation 4: Continue expanding the involvement of all state
                homeland security or equivalent agencies in the identification of potential
                critical infrastructure/key resource sites.


Thorough Review of Selected Equipment is Needed
                The BZPP equipment selection and approval process was not sufficiently
                documented at the local, state, and DHS levels. This made it difficult to
                determine whether the BZPP grants were adequately aligned with state and
                national efforts, and not duplicative of other funding sources. Additionally,
                BZPs and VRPPs that were completed by responsible jurisdictions usually did
                not list all the equipment required to address site vulnerabilities or convey
                why certain equipment was selected over other equipment options identified
                in the plan. In those instances, there was no assurance that the funded
                equipment was the most appropriate for the identified site vulnerability or the
                needs of the responsible jurisdiction.




                         Review of the Buffer Zone Protection Program
                                            Page 14
The Review and Approval Process

The BZPP is intended to identify vulnerabilities of selected CI/KR assets and
the protective measures necessary to help responsible jurisdictions protect
them (see Figure 3). According to the BZPP grant guidance, documented
reviews by the state agencies and DHS are necessary to certify that the
selected equipment is the most appropriate for the identified site
vulnerabilities and will not be duplicated under another funding source. The
BZP template, section 8.4, requires responsible jurisdictions to document “the
specific shortfalls in equipment, training, and personnel that detract from
security capabilities in the buffer zone” and allows them to select up to
$50,000 in equipment that will mitigate identified vulnerabilities. Program
managers described BZP and VRPP development as a process that documents
all existing site vulnerabilities, the measures to increase site security, and the
selection of the prioritized equipment. Managers required the identification of
all recommended enhancements to assist responsible jurisdictions seeking to
leverage their grant to acquire additional equipment or resources.



                         Figure 3: Key Steps BZP Development

 Identify Threats         Protective        Identify Resources   Vulnerability Reduction
 & Vulnerabilities           Plan                  & Needs           Purchase Plan
   Site assets &          Measures to          All recommended       Select equipment
    threat scores       increase security       enhancements          for BZPP funding




In 2004, DHS authorized responsible jurisdictions to select any type of
equipment, up to a value of $50,000, considered necessary and appropriate to
mitigate the vulnerabilities identified in their BZP. In 2005, BZPP program
managers standardized the equipment identification, selection, and approval
process and suggested that responsible jurisdictions select equipment from
these Authorized Equipment List categories:

    •    Explosive device mitigation and remediation;
    •    Interoperable communications;
    •    Detection;
    •    Physical security enhancement; and
    •    Inspection and screening systems.




           Review of the Buffer Zone Protection Program
                              Page 15
The Office of Grant Programs now maintains the Authorized Equipment List
to assist federal, state, and local public safety organizations to identify and
procure security-related equipment available through DHS grant programs.
The list consists of 21 equipment categories and offers information on
available equipment, technologies, certification standards, and agencies using
the equipment. It contains a description of the item, the item’s identifier
number, and the permissibility of its purchase using DHS grant funds.

Under the 2005 BZPP grant program procedures, responsible jurisdictions
completed a VRPP listing the type and cost of equipment needed to protect
the CI/KR asset, again up to a value of $50,000. DHS automatically approved
for procurement the equipment requested from the five suggested Authorized
Equipment List categories, provided the responsible jurisdiction documented
the need in the BZP. Program managers approved equipment requests from
other equipment categories on a case-by-case basis. According to the program
guidance, the state administrative or state homeland security agency reviews
each BZP and VRPP to determine that equipment and other recommended
enhancements align with state or urban area strategy goals and will be
leveraged, as appropriate, with additional resources from other funding
sources.

Approval of Equipment Purchases Was Not Well-Documented

We visited California, Georgia, Illinois, Virginia, and the District of Columbia
and reviewed 412 BZPs and related documents submitted in 2004 and 2005 by
the four states. The District of Columbia had not submitted any BZPs and
VRPPs at that time. While the BZPP Memorandum of Agreement and the
grant guidance stipulates that states, G&T, and RMD were required to review
and approve BZPs and VRPPs, neither the states nor the DHS sub-
components documented their assessments. We were unable to obtain
sufficient documentation supporting approval of the VRPP at the state- and
DHS-approval stages and in 100% of the BZPs, neither the state
administrative agency nor DHS documented their review and approval of the
equipment purchase plans. Furthermore, the BZP template was not designed
to capture such written reviews. G&T Preparedness Officers said that they
reviewed only the equipment requested in the VRPP to assure that it was
included in the Authorized Equipment List and listed in BZP section 8.4,
recommended enhancements.




         Review of the Buffer Zone Protection Program
                            Page 16
Without written documentation that the states and DHS have reviewed and
certified the BZPP protective strategy and equipment request, DHS has no
assurance that:

   •   The BZP and approved equipment are coordinated with DHS’ and the
       state’s homeland security strategy goals and objectives, other
       programs, and funding sources;
   •   Similar equipment has not or will not be acquired by responsible
       jurisdictions from another funding source; and
   •   The equipment is the most appropriate for the identified site
       vulnerabilities.

Program officials are taking steps to improve the BZP document submission,
review, and approval process. For 2006, the state homeland security agency
was required to provide a summary description of how the BZP supports state
or urban area security strategies and national priorities, to discuss additional
funding sources that leverage the implementation of the plan, and to list the
target capabilities that it supports. This information is required for an
assessment of each BZP’s protective security strategy. For the 2006 BZPP,
states that submitted VRPPs that were not initially approved received specific
guidance from the G&T Preparedness Officer or IP reviewer as to why the
plan failed.

Equipment Selected May Not Target Site Vulnerabilities or Program Priorities

When comparing the equipment identified in the BZP’s recommended
enhancement sections with equipment requested in the VRPPs, we could not
determine why certain equipment was selected over other equipment types. In
some instances, responsible jurisdictions could have selected equipment
recommended in their BZP within the $50,000 cap and listed in one of the five
suggested Authorized Equipment List categories but instead, chose equipment
listed under other categories, such as personal protective, intervention, and
operational and logistical support categories (see Appendix C). The BZP and
VRPP submission process does not require responsible jurisdictions to
prioritize needed equipment or document the reason for their selection of
equipment, nor is the equipment review and approval documented by RMD.

Responsible jurisdiction officials said that, given the large amount and types
of equipment listed under each of the Authorized Equipment List categories, it
was difficult to identify the types of the equipment best suited to address site




         Review of the Buffer Zone Protection Program
                            Page 17
vulnerabilities. Many state administrative agency and other responsible
jurisdiction officials described the equipment they requested as more
response-oriented than prevention-oriented equipment. Examples of
response-oriented equipment requested by responsible jurisdictions include
command post-crime scene evidence collection vehicles, bomb response
vehicles, total containment vessels, and bomb squad self-contained breathing
apparatus equipment. Approximately 44% of the funded equipment in the
four states was from categories other than the five suggested categories.

Program managers said that when the selected equipment was not from the
five suggested categories, it was more difficult to determine how the
equipment matched the site protection goals of the BZP. Additionally, state,
G&T, and RMD program staff said that they rarely questioned or denied
equipment requested from outside the five suggested categories because
responsible jurisdictions are in a better position to determine the most
appropriate equipment. Perfunctory reviews and approvals of equipment may
have resulted in equipment purchases unsuited to the BZP-identified site
vulnerabilities or the BZPP program protective strategy.

DHS describes BZPP as a targeted infrastructure protection program intended
to supply security equipment matched to each BZPP site’s specific protective
strategy. However, authorizing essentially every equipment purchase from
any Authorized Equipment List category, as was frequently the case for the
2005 BZPP, increases the possibility that DHS expectations and responsible
jurisdiction objectives will not be aligned. Rather than the highly targeted
program envisioned by DHS, the equipment purchases we reviewed
frequently lend themselves more to general terrorism detection or response
efforts than to specific and tailored buffer zone protection strategies.

Beginning in the 2006 BZPP, RMD required the responsible jurisdictions to
select equipment from 12 pre-identified equipment categories considered by
program managers to be the most appropriate for threat detection and
prevention security strategies. The 12 allowable equipment categories are:
Explosive Device Mitigation and Remediation Equipment; CBRNE
Operational Search and Rescue Equipment; Information Technology; Cyber
Security Enhancement Equipment; Interoperable Communications
Equipment; Detection Equipment; Power Equipment; Terrorism Incident
Prevention Equipment; Physical Security Enhancement Equipment; Inspection
and Screening Systems; Agricultural Terrorism Prevention, Response and
Mitigation Equipment; and Other Authorized Equipment. Only select




         Review of the Buffer Zone Protection Program
                            Page 18
subcategories within the CBRNE Operational Search and Rescue Equipment
category are eligible for FY 2006 BZPP funding. Focusing the BZPP grants
on specific types of equipment will better support the protective goals of the
BZPP program.

Plans Do Not List All Equipment Required to Address Site Vulnerabilities

Many responsible jurisdictions conducted thorough site vulnerability
assessments during the development of their BZP. However, few completed a
detailed list in BZP section 8.4 recommended enhancements of all the
equipment necessary to enhance the protection of the CI/KR asset. We
compared the BZP recommended enhancements with the corresponding
VRPPs for the four states. Of the 412 BZPs, only 136 (33%) listed more than
the equipment requested for funding in the purchase plan. The remaining
67% essentially mirrored the equipment requested for funding in the VRPP.
They did not identify the site’s other recommended enhancements in the
manner intended—as a means to determine all protective gaps and required
resources, and to leverage other sources of assistance. Therefore, these BZPs
cannot serve as a baseline for all the required protective measures and
equipment needed for the buffer zone of the CI/KR site.

RMD officials said that even though responsible jurisdictions were
encouraged to list all enhancements needed to overcome buffer zone security
gaps and shortfalls, they usually found it easier to provide information on only
the equipment they were purchasing, versus all that was needed. Instructions
in the 2006 BZP template section 7.6.13 encourages but does not require
responsible jurisdictions to identify equipment, training, and capability
enhancements beyond what is being requested.

Equipment May Not Be Available to All Intended Sites

Responsible jurisdictions have always had the option of batching several
BZPP sites located within their jurisdiction under one VRPP. This enables
jurisdictions to purchase a larger array of, or more expensive, equipment.
Some large urban areas containing multiple BZPP sites consolidated ten or
more sites under a single plan.

According to program guidelines, equipment batched into one VRPP must
reflect the specific needs identified in each associated BZP and be listed in
each BZP’s recommended enhancements section. However, the guidelines do




         Review of the Buffer Zone Protection Program
                            Page 19
                not require written certification that the equipment requested under a single
                plan will be available to and used at all of the sites. Without such
                certification, there is a concern that purchased equipment will not be available
                to all BZPP sites or will be used for purposes not intended by the program.

                We recommend that Under Secretary for National Protection and Programs:

                Recommendation 5: Require the Protective Security Coordination Division
                to certify: (1) that the equipment or resource enhancements requested in the
                VRPP are appropriate for the identified site vulnerabilities or the capability
                gap of the responsible jurisdiction; and (2) that the BZP approval is based on
                an analysis of the BZP plan’s protective security strategy.

                Recommendation 6: Provide instructions in the BZPP application requesting
                that responsible jurisdictions include a complete description of all equipment,
                training, and capability needs necessary to protect the BZPP site or close
                capability gaps of the responsible jurisdiction.

                Recommendation 7: Provide instructions in the BZPP application requesting
                that responsible jurisdictions certify that all the equipment received will be
                available to all of the BZPP sites listed under the same Vulnerability
                Reduction Purchase Plan.


Other Factors Affecting Program Administration
                Several other factors have affected program administration and contributed to
                the pace with which states have expended funds. First, neither DHS nor the
                states and responsible jurisdictions were well equipped to manage the very
                complex document development and submission process that evolved after
                DHS converted BZPP into a grant program. Second, applicants complained
                that DHS’ suggested target assessment tool, while a key ingredient in their
                BZPP preparation, was too subjective, time consuming, and unreliable. Third,
                responsible jurisdictions complained of not receiving training in completing
                their BZP and VRPP documents. Finally, two DHS sub-components share
                responsibility for administering the program, particularly reviewing and
                approving the submitted BZP documents. Until recently, the sub-components
                had to coordinate these activities without the benefit of an automated system.
                This clouded roles and responsibilities of the sub-components when it came to
                grant decision-making, and confused applicants seeking the right DHS




                         Review of the Buffer Zone Protection Program
                                            Page 20
officials who could answer questions about the BZP document development
and submission process.

The 2005 BZP and VRPP Submission Process Was Complex and Time
Consuming

With G&T assuming responsibility for management and distribution of the FY
2005 BZPP funding awards, a complex BZP and VRPP submission process
emerged (see Figure 4). The process left state and local governments
confused and overworked. It entailed many responsibilities for DHS offices,
state grantees, and responsible jurisdictions. RMD and G&T were required to
coordinate efforts in order to move the process forward.

The responsible jurisdiction drafts a BZP and VRPP for each site in its
jurisdiction. It then submitted both plans to the state administrative agency
for verification that the requested equipment complied with state homeland
security strategies and did not overlap with other grant funding in the same
jurisdiction. The state administrative agency would send the BZP documents
to the G&T Preparedness Officer to ensure the requested equipment was
allowable under the Authorized Equipment List. Once G&T approved the
BZP equipment, it had to hand-carry the documents to RMD. RMD
ascertained whether the data fields were complete. RMD logged the requested
equipment into its database and notified G&T of its approval decision. G&T
contacted the state administrative agency stating that the BZP and VRPP was
approved and, subsequently, the state administrative agency notified the
responsible jurisdiction to begin the purchasing process.




         Review of the Buffer Zone Protection Program
                            Page 21
                                        Figure 4: BZPP Grant Process

                                                             G&T Releases
        IP Selects BZP Sites        G&T Notified                                    POs Release               State
                                                                Grant
        in Coordination with          of Site                                         Sites to               Notifies
                                                               Guidance/
               SHSA                  Selection                SAAs apply            SHSA/SAA                  RJOs

                                                                                              Problem with BZP/VRPP

           G&T PO Reviews             G&T Contractor                State Sends                                           RJOs
             BZP/VRPP                 Receives/ Logs                                        State Receives &             Prepare
                                                                   BZP/VRPP to
               Request                 BZP/VRPP                                              Reviews BZP                BZP/VRPP
                                                                       G&T

                                                                                                             IP Tech
        YES     PO       NO                                                                                   Assist
              Approve                                                                                       Available

                                        IP Contractor Logs                                 IP Contractor
                                                                    IP Contractor
                G&T Contractor          BZP/VRPP into an                                  Analyst Drafts
                                                                       Analyst
                Takes CDs to IP          Internal Tracking                                  Comments
                                                                      Reviews
                 (1-2xs a week)           System With a                                      Regarding
                                                                     BZP/VRPP
                                         Tracking Number                                  Approval Status


                                                                                IP                  IP Program
        State Begins          G&T P.O.             G&T Notified       YES
                                                                             Contractor              Manager
          Payment            Notify State;         by Email of IP
                                                                              Review              Reviews BZP &
          to RJOs           Funds Available          Approval
                                                                                                  VRPP Request

                                                                            NO*
                 *If IP Does Not Approve the BZP, it Re-Enters
                 the Entire Process Starting With RJOs preparing
                 the VRPP/BZPP. There is no limit to the number            IP Notifies            BZP/VRPP              State Contacts
                 of times an application can fail.                       G&T via Email            Sent Back to          RJO for More
                                                                         of Disapproval            State by IP           Information

   Color Code: IP/RMD – Yellow. G&T – Green. State SHSA/SAA – Orange. RJOs – Blue. Contractors – Red.
   Abbreviations: AEL – Approved Equipment List. SHSA/SAA – State Homeland Security Agency/State Admin-
   istrative Agency. RJO – Responsible Jurisdiction Organization. VRPP – Vulnerability Reduction Purchase Plan



The 2005 BZP document submission, review, and approval process had a number
of issues:

       •      There was no clear BZP document submission deadline in 2005 and
              many responsible jurisdictions did not begin their BZP development
              until late summer or early fall of 2005. The average BZP and VRPP
              development and approval took 109 days from initiation at the
              responsible jurisdiction level to approval by RMD. While RMD
              ultimately waived all submission deadlines, as of March 21, 2006, 158
              BZPs had not yet been submitted to DHS and 656 remained to be
              approved and authorized for expenditure.

       •      Initially some state administrative agencies were unaware of the
              requirement to prepare a VRPP for those BZPs previously submitted in




                Review of the Buffer Zone Protection Program
                                   Page 22
       2004. This resulted in G&T rejecting plans and sending them back
       through the state office to the responsible jurisdictions. The
       responsible jurisdiction then drafted the BZP and VRPP and
       resubmitted them to the state office, further lengthening the BZP
       development, review, and approval process.

   •   Mail and hand delivery of BZPs and VRPPs was necessary due to
       security concerns regarding the electronic submission of sensitive
       security information. For 2005, all BZPP documentation was placed
       on CDs and delivered through express mail. G&T activated an online
       secure portal for the 2006 process.

   •   RMD subject matter experts were not carefully reviewing BZPs and
       VRPPs to determine if the plans were sound and the equipment
       appropriate. RMD is responsible for the subject matter review of
       BZPs and VRPPs, and holds the final approval authority for BZPs,
       funds, and equipment.

In 2005, G&T Preparedness Officers informed the state administrative
agencies of those CI/KR sites that DHS selected. In turn, the state
administrative agency notified the responsible jurisdictions with protective
security responsibilities for the sites. States became frustrated with the BZPP
initiation process and lacked information on how to identify the appropriate
responsible jurisdictions. In some cases, the BZPP site would have an address
in one jurisdiction, but a neighboring jurisdiction would be responsible. One
state official said that determining which responsible jurisdiction was
responsible for the site was the most time-consuming part of the process.

Once the responsible jurisdiction received the BZPP site list, they assigned the
development of the BZP to a law enforcement officer, often in addition to the
officer’s regular duties. In some cities, responsible jurisdictions had a local
homeland security unit that was responsible for the BZP, but these offices
were usually composed of only two or three officers. In most cases, one or
two law enforcement officers from the regular police force were responsible
for conducting the vulnerability assessments, drafting the BZP, and
developing the VRPP. On average, responsible jurisdictions needed
approximately 200 hours over a 2- to 3-month period to complete one BZP.
Larger facilities with more complex vulnerability assessments often required
up to 300 hours to complete a plan. As we noted earlier, DHS recognized the




         Review of the Buffer Zone Protection Program
                            Page 23
additional time requirements associated with developing BZPs and increased
allowable management and administrative costs from 3% to 5% for 2006.

In 2005, the absence of an automated grant system compounded issues related
to the BZP submission process. Because the BZPP employed a paper-
intensive process, states spent a significant amount of time trying to determine
the status of BZPs already submitted to DHS. Many states said there was a
lack of reliable real-time information or data.

In 2006, DHS introduced a web-based system that enabled states to submit the
BZPs and VRPPs electronically to DHS. This should enable DHS to track
BZPs and VRPPs more easily. Presently, the system does not allow states or
responsible jurisdictions to view the status of DHS’ review of their plans.

The Program Discontinued its Original Assessment Tool

Another factor that contributed to the time responsible jurisdictions spent on
2005 BZP development was the use of a target analysis tool—CARVER—
developed by U.S. Army Special Operations Forces for mission planning and
targeting an adversary’s installations. The acronym CARVER stands for the
six factors the military consider in the target analysis process: criticality,
accessibility, recuperability, vulnerability, effect, and recognizability. RMD
promoted its use as an assessment tool to help responsible jurisdictions apply
a terrorist point of view and determine the components of a system or facility
that terrorists would most likely target to attack. Responsible jurisdictions
evaluated and scored their BZPP site’s key components and assets—systems
and subsystems such as power supply, fuel storage, and rail yards—against
each of the six CARVER factors. Components and assets with the highest
total scores were considered to be potentially the most vulnerable elements of
the system. After prioritizing the list of targets at the site, the responsible
jurisdiction identified the security measures required to prevent, protect, and
respond to an attack.

While having the status of only a suggested site vulnerability assessment tool,
and with limited training, a majority of responsible jurisdictions employed the
tool in the 2005 BZPP. Many described it as overly time consuming for the
data it yielded, limited in its application, and not well suited to commercial
facilities such as the malls, stadiums, office buildings, and theme parks that
made up 46% of the 2005 BZPP sites. They determined that publicly
accessed commercial sites typically have a larger number of potential threats




         Review of the Buffer Zone Protection Program
                            Page 24
to analyze than other BZPP sites, resulting in very close scoring and difficulty
in prioritizing.

BZPP program managers also recognized the tool’s shortcomings: one
manager described it as “much too subjective,” saying that “if ten people used
it at the same site you could have ten different scores.” In 2006, RMD
determined that the tool was too problematic and removed it from the BZPP
program package sent to responsible jurisdictions. Instead, RMD expanded
the BZP template to gather additional site and local law enforcement capacity
information for better gap analysis. The gap analysis identifies current
capabilities on the site and in the surrounding area, and focuses on identifying
the range of equipment and other resources required to address site
vulnerabilities in general, rather than at specific site systems and subsystems.

Training For Preparing BZPs Did Not Meet Demand

To introduce responsible jurisdictions to the 2005 BZPP program, RMD
program managers conducted training workshops and offered on-site technical
assistance. The workshops offered site assessment training to local law
enforcement and other prevention personnel, and prepared them to complete
the BZP and Vulnerability Purchase Plan templates. Workshops often
included more than one responsible jurisdiction and typically included a
CI/KR site visit for training purposes. On-site technical assistance delivered
additional support in the development of BZPs for specific sites. Between
April 2004 and December 2005, RMD delivered 178 training workshops and
135 technical assistance visits.

Generally, responsible jurisdictions were satisfied with the content of the
training workshop and technical assistance programs. However, not all who
sought training received it. Program managers did not have a coordinated
strategy to provide technical training and support to all the states and
responsible jurisdictions participating in the BZPP. Instead, workshops and
technical assistance visits were unevenly distributed across all BZPP sites and
focused primarily on large urban areas. Some responsible jurisdictions were
unaware of the technical assistance visits, while others said that support and
training would have been helpful, but they were unable to get on the schedule.
One training program participant observed that, within the initial 12 months of
the BZPP program, it was evident that the program managers were
overwhelmed by the demand and unable to respond to all requests. When
program managers were unable to respond to all requests, some state




         Review of the Buffer Zone Protection Program
                            Page 25
administrative agencies asked larger jurisdictions with the requisite staff
knowledge and resources to train or assist smaller jurisdictions in their region
to complete their BZPs.

Limited Resources Have Affected Program Administration

During our review, a majority of BZPP program staff was composed of
contractors who provided continual support to G&T and RMD. G&T
employed one part-time program manager and one full-time support
contractor to process BZPs, while RMD employed one full-time program
manager, three full-time support contractors, and one half-time support
contractor to vet and approve BZPs (see Figure 5). DHS’ reliance on
contractors places the program in a delicate situation. RMD said that it had
one contract to support the BZPP efforts, and should the contract be lost or not
sufficiently cover the time and efforts of the contractors, the BZPP program
would be hampered and possibly shut down. G&T experienced difficulty
renegotiating a contract for one full-time contractor on BZPP.


                            Figure 5: RMD- G&T Staffing
 Component                     G&T                               RMD

   Actual*       1 Part-time Program Manager         1 Full-time Program Manager
                 1 Full-time Contractor              3 Full-time Contractors
                                                     1 Part-time Contractor
  *Responsible for 2006 BZPP and Chemical Sector BZPP Programs


G&T said that even with contracted support, they did not have sufficient staff
to run the BZPP. RMD said they had recently undergone a reorganization to
maintain the resources necessary to successfully execute the program.
However, changes within the 2006 BZPP, such as the decrease in eligible
sites, the addition of a web-based application process, and inclusion of the
Chemical Sector BZPP, make it difficult to determine appropriate staffing
levels.

In early 2005, RMD deployed 17 Protective Security Advisors (PSA) to assist
local efforts to protect critical assets and provide a local perspective to the
national risk picture. While the PSA program ultimately grew during 2005 to
more than 60 field personnel in all 50 states, RMD did not deploy the advisors




          Review of the Buffer Zone Protection Program
                             Page 26
in enough time to assist states with the 2005 BZPP. During 2005, the advisors
served primarily as a contact for follow-up with states or DHS on the status of
BZPs. The advisors said that they did not always receive the most up-to-date
information on 2005 and 2006 program changes from RMD, and often
received more current program information from their state-level contacts.
Several advisors and state officials believed this was due to the limited
number of full-time RMD and G&T staff assigned to the BZPP. RMD has
described a more prominent role for PSAs which, given their regular
communication with state offices and responsible jurisdictions, has the
potential to enhance the program significantly.

Today, the National Protection and Programs Directorate’s Protective Security
Coordination Division and FEMA’s National Preparedness Directorate
Capabilities Division share responsibility for administering the BZPP. Under
their Memorandum of Agreement, the Protective Security Coordination
Division serves as the subject matter expert in the development, review,
implementation, and monitoring of BZPs, VRPPs, and site vulnerability
assessment activities. It has the final decision-making authority for approval
of BZPs and VRPPs. FEMA’s National Preparedness Directorate Capabilities
Division serves as the point of contact for state administrative agencies and
assures programmatic and financial administration, monitoring, and
processing of grant awards. This partnership has brought organizational
stability to the BZPP program because of states’ familiarity with grant
personnel. But from the states’ perspective, the BZPP does not have a single,
responsible program official to provide guidance and feedback. The few
dedicated staff it has are spread between two DHS components. States
perceive the lack of staffing as the primary reason for delays in the review and
approval process for BZPs and VRPPs.

As the office primarily responsible for overseeing the department’s grant
programs, the National Preparedness Directorate’s Capabilities Division is
accustomed to having a large role in deciding grant awards. It possesses
broad technical expertise and provides advice to states and responsible
jurisdictions on equipment purchases. The Capabilities Division could
streamline the review and approval process if it oversaw the contractor that
currently reviews BZPs and VRPPs for the Protective Security Coordination
Division. We are recommending that DHS consider this option.




         Review of the Buffer Zone Protection Program
                            Page 27
We recommend that the Under Secretary for National Protection and
Programs and the Deputy Administrator for the National Preparedness
Directorate:

Recommendation 8: Clarify roles and responsibilities of the National
Protection and Programs Directorate’s Protective Security Coordination
Division and FEMA’s National Preparedness Directorate Capabilities
Division and amend the BZPP Memorandum of Agreement accordingly.

Recommendation 9: Streamline the review and approval of BZPs and VRPPs
by shifting responsibility for the review to FEMA’s National Preparedness
Directorate Capabilities Division.

Recommendation 10: Increase the current allocation of resources to the
BZPP so that sufficient staff is available to respond to applicant concerns and
technical support needs during the BZP and VRPP development process.

Recommendation 11: Provide state administrative agencies and responsible
jurisdictions web-based access to the grants management system to monitor
status of BZPs and VRPPs

Recommendation 12: Provide Protective Security Advisors sufficient access
to the grants management system so they may better assist states, state
administrative agencies, and responsible jurisdictions to carry out the BZP and
VRPP development and submission process.




         Review of the Buffer Zone Protection Program
                            Page 28
Management Comments and OIG Analysis
           We evaluated DHS management’s written response to our draft report, as well
           as information provided by grant and program officials since the exit
           conference, and made changes throughout the report. Based on this
           information, we have closed several of the report’s recommendations. Below
           is a summary of management’s comments on the report recommendations and
           our analysis of them. For purposes of clarity, we split Recommendation 8 into
           two recommendations, with the latter becoming Recommendation 9.

           Since the draft report was issued and management submitted its written
           response, the offices managing this program have transitioned to FEMA and
           to a newly created directorate, the National Protection and Programs
           Directorate (NPPD). In March 2007, FEMA’s Office of Grant Programs
           assumed responsibility for executing the BZPP grant program. The
           Preparedness Officers and BZPP program managers were transitioned to
           FEMA, specifically the National Preparedness Directorate’s Capabilities
           Division. In March 2007, the Risk Management Division was reorganized
           into NPPD’s Protective Security Coordination Division. Our report
           recommendations and discussion below reflect those changes.

           Management expressed concern that the OIG placed too much emphasis on
           the program’s 2004-2005 startup years and did not sufficiently credit
           management for improving the program in 2006 and 2007. The OIG focused
           on BZPP since its inception to meet the objectives of our review specifically,
           to determine the efficiency of the process management used to identify BZPP
           assets and the adequacy of eligibility criteria used to determine investments at
           CI/KR sites. We completed our fieldwork in September 2006, which
           coincided with the conclusion of the 2006 BZPP grant awards and preparation
           of the 2007 program. We anticipated that our original recommendations
           would improve the 2007 grant program, however, management has taken
           action to address most of those recommendations. Accordingly, we
           highlighted corrections and ongoing improvements by program and grant
           officials throughout the report.

           Management also expressed concern that the OIG did not accurately convey
           programmatic goals and objectives. The report presents the program’s
           objectives as originally conceived, and also reflects subsequent refinements.
           In 2004 and 2005, the purpose of the BZZP was to mitigate specific threats
           and CI/KR vulnerabilities. Program emphasis shifted in later years to increase




                    Review of the Buffer Zone Protection Program
                                       Page 29
state and local capability to develop and implement homeland security support
programs.

Management attributed the slow delivery of equipment to procurement issues
at the state and local level. We recognize that local procurement processes
and procedures impact when equipment is made available to responsible
jurisdictions. However, difficulties and delays in identifying sites and
approving BZP plans during 2004 and 2005 were also factors. We modified
the report to state that management now requires states to make BZPP funds
available to responsible jurisdictions within 60 days of the VRPP approval
notification.

Recommendation 1: Verify all future BZPP site data with the applicable
state homeland security or equivalent agencies and establish standard
procedures for the state agencies to substitute BZPP sites.

Management Comments: Management did not specifically address this
recommendation in its formal response.

OIG Analysis: In subsequent discussions of the draft report, BZPP program
managers described the process employed at the state level in 2006 to develop
initial Tier One and Tier Two site lists and to vet and validate these lists with
state agencies. They described the expanded role that Protective Security
Advisors now play in supporting this process. They stated that ad hoc
substitution of sites during the execution of the program was not permitted in
2006.

Furthermore, the 2007 guidance, which describes the procedures for verifying
BZPP site data with state and local agencies, is responsive to this
recommendation. In addition, the use of the PSAs to assist states in vetting
site lists will help ensure that BZPP site selection involves all necessary
players. We concur with this information.

Recommendation 1 is resolved – closed.

Recommendation 2 (revised): Ensure that the BZPP grant guidance
explicitly states that funding may be used to secure buffer zones surrounding
federal facilities.




         Review of the Buffer Zone Protection Program
                            Page 30
Management Comments: Management asked that the OIG delete the
original recommendation to revise the 2007 BZPP grant guidance to stipulate
that federal government sites may not receive BZPP funding, noting that if a
nuclear power site or other high-risk site were federally owned, it would still
be critical for the surrounding jurisdiction to be prepared. Funds would not be
provided to the site or owner. Rather, consistent with the current BZPP
structure, funds would be provided to the jurisdiction responsible for the
safety and security of the community that surround the site.

OIG Analysis: We agree that the original recommendation to revise the 2007
BZPP grant guidance to stipulate that federal government sites may not
receive BZPP funding would unnecessarily limit managements’ ability to
protect federally owned high-risk sites. Issuance of the FY 2007 BZPP
Program Guidance and Application Kit in January 2007, with the prohibition
that BZPP funds may not be used for the improvement of federal buildings or
for other activities that solely benefit the federal government, is responsive to
the issues we raised regarding federal facilities and the BZPP program.

Based on our discussions with program managers, the Directorate’s written
response, and other actions taken, we have modified this recommendation. As
written, program guidance may still confuse states and responsible
jurisdictions regarding the inclusion of federal sites and we are recommending
that the guidance be clearer. Management can satisfy this recommendation by
acknowledging it will update next year’s guidance and application kit.

Recommendation 2 is resolved – open.

Recommendation 3: Establish a deadline for processing all remaining 2005
BZPP applications.

Management Comments: Management suggested that the OIG modify this
recommendation to state, “Do not process or approve any period of
performance requests.” As all 2005 applications have been processed, the
deadline currently in place was the end of the period of performance for the
grant – April 7, 2007. Due to the length of the state and local procurement
processes, states may request extensions to this deadline so that they might
effectively spend grant dollars. Management responded that it would
reconsider this rephrased recommendation, noting that denying any potential
and adequately justified request could have considerable negative implications
for the Department.




         Review of the Buffer Zone Protection Program
                            Page 31
OIG Analysis: We concur with management’s response. Management has
processed all 2005 applications and implemented a deadline for states to
submit their FY 2007 BZPs.

Recommendation 3 is resolved - closed.

Recommendation 4: Continue expanding the involvement of all state
homeland security agencies in the identification of potential critical
infrastructure/key resource sites.

Management Comments: Management did not specifically address this
recommendation in its response.

OIG Analysis: Program officials indicated during discussions of the report
draft and in follow-up documentation that all state homeland security agencies
were involved in the identification of potential CI/KR sites for FY 2007.
Officials plan to make another data call to states to improve the quality and
quantity of the Tier One and Tier Two site lists.

We concur with these actions. Management can fully satisfy this
recommendation by providing a copy of the methodology to be used in the
upcoming data call to select, vet, and verify BZPP sites, as well as the results
of the data call.

Recommendation 4 is resolved – open.

Recommendation 5 (revised): Require the Protective Security Coordination
Division to certify: (1) that the equipment or resource enhancements requested
by the responsible jurisdictions are appropriate for the identified site
vulnerabilities or capability gap of the responsible jurisdiction; and (2) that the
BZP approval is based on an analysis of the BZP plan’s protective security
strategy.

Management Comments: Management responded that it has taken action to
address this recommendation. In discussions of the draft report and follow-up
documentation, program managers stressed that 2006-2007 BZPP program
goals include closing the capability gaps of responsible jurisdictions. The
2006-2007 BZP template requires the responsible jurisdiction to document
how the equipment requested mitigates a site-specific vulnerability or a




         Review of the Buffer Zone Protection Program
                            Page 32
capability gap of the responsible jurisdiction that has been identified in the
BZP.

OIG Analysis: We concur with management’s response. We modified our
report and this recommendation to reflect the new goals. The 2006-2007 BZP
template requires the responsible jurisdiction to document how equipment
funded with BZPP money mitigates a site-specific vulnerability or gap within
the community and is appropriate.

Management should provide documentation outlining the specific criteria used
to analyze the BZP protective security strategies and the process to certify that
the BZP meets those criteria.

Recommendation 5 is resolved – open.

Recommendation 6 (revised): Provide instructions in the BZPP application
requesting that responsible jurisdictions include a complete description of all
equipment, training, and capability needs necessary to protect the BZPP site
or close capability gaps of the responsible jurisdiction.

Management Comments: Management responded that in 2006 and 2007 it
included instructions in the BZP template to guide responsible jurisdictions in
the completion of BZPs. In discussions of the draft report, program managers
stressed that 2006 and 2007 BZPP program goals include closing the
capability gaps of responsible jurisdictions. Management indicated that it
added additional instructions in the BZP template to guide responsible
jurisdictions in the identification of all necessary equipment in the BZP.

OIG Analysis: We modified the final report and reworded this
recommendation to reflect the 2006 and 2007 BZPP program goals.
However, the BZP template does not indicate that responsible jurisdictions
should list all necessary equipment. Management can satisfy this
recommendation by providing instructions in the BZPP application requiring
that responsible jurisdictions include a complete description of all protective
measures, equipment, and capability needs necessary to protect the BZPP site
or close capability gaps of the responsible jurisdiction.

Recommendation 6 is resolved – open.




         Review of the Buffer Zone Protection Program
                            Page 33
Recommendation 7: Provide instructions in the BZPP application requesting
that responsible jurisdictions certify that all the equipment received will be
available to all of the BZPP sites listed under the same Vulnerability
Reduction Purchase Plan.

Management Comments: Management responded that it has taken steps in
2006 and 2007 to ensure all requested purchases are coordinated with other
on-going efforts, programs, and strategies within the region and state.

OIG Analysis: Management’s actions are responsive to the recommendation.
However, the BZP template does not indicate that responsible jurisdictions
should certify that all the equipment received will be available to all BZPP
sites listed under the same Vulnerability Reduction Purchase Plan.
Management can satisfy this recommendation by providing instructions in the
BZPP application requesting that responsible jurisdictions certify that all the
equipment received will be available to all of the BZPP sites listed under the
same Vulnerability Reduction Purchase Plan.

Recommendation 7 is resolved – open.

Recommendation 8: Clarify the roles and responsibilities of the National
Protection and Programs Directorate’s Protective Security Coordination
Division and FEMA’s National Preparedness Directorate Capabilities
Division and amend the BZPP Memorandum of Agreement accordingly.

Management Comments: Management concurred that it should review the
Memorandum of Agreement and consider changes as noted in the
recommendation. In follow up discussions of the draft report, program
officials stated that the purpose of the review would be to make adjustments
based on the evolution of the BZPP and to reflect the reorganization of IP and
G&T.

OIG Analysis: We concur with management’s response. Management
should provide a copy of the revised MOA.

Recommendation 8 is resolved – open.

Recommendation 9: Streamline the review and approval of BZPs and
VRPPs by shifting responsibility for the application’s technical review to
FEMA’s National Preparedness Directorate Capabilities Division.




         Review of the Buffer Zone Protection Program
                            Page 34
Management Comments: In its response to the draft report, management
disagreed and stated that subject matter expertise for the site selection process
and BZP review should reside within IP, which transitioned to the National
Protection and Programs Directorate on March 31, 2007. In discussions of the
draft report, program officials cited the possibility of a disconnect resulting
from shifting infrastructure protection responsibilities out of the National
Protection and Programs Directorate, and a corresponding lack of subject
matter expertise within the FEMA’s Capabilities Division. Program officials
believe that the intent of the recommendation is to streamline approval of
BZPs and implementing it would contradict that intent.

OIG Analysis: The National Protection and Programs Directorate serves as a
valuable resource in identifying BZPP sites and conducting training exercises.
Our concern regarding the technical review stemmed from whether IP had
sufficient resources to complete the reviews, its heavy reliance on contract
support to review security plans, and the Office of Grants and Training’s
willingness and capability to perform this task. During our fieldwork, G&T
officials acknowledged that their contractors could also perform this review
and it would promote a cohesive and unified system to states applying for
grants and result in consistency throughout the DHS grant processes.

After we issued our draft report, program officials provided additional insights
about the program applicable to this recommendation. The National
Protection and Programs Directorate now has a cadre of approximately 68
Protective Security Advisors to support the BZP submission and approval
process. The PSAs participated in the 2006 and 2007 program. Directorate
officials are confident that, by reducing the number of sites in 2007 to
approximately 200, it will have a more manageable number of security plans
to review and fewer resources will be required to review them. Finally, grant
officials reconsidered their earlier comments that they could review BZPs, and
reported that they believe the National Protection and Programs Directorate
should perform this task.

Based on these developments, Recommendation 9 is resolved - closed.

Recommendation 10: Increase the allocation of resources to the BZPP so
that sufficient staff is available to respond to applicant concerns and technical
support needs during the application process.




         Review of the Buffer Zone Protection Program
                            Page 35
Management Comments: The reduction of eligible BZPP sites from more
than 1,800 in FY 2005 to approximately 200 in FY 2006 and 2007 will lower
the grant office’s administrative responsibilities and the amount of resources
needed to support the program, review applications and security plans, and
address any applicant concerns. Management will continue to monitor
program resources and respond accordingly. Program officials also noted that
the roles of the Protective Security Advisors have been expanded to assist
with the program.

OIG Analysis: We concur that the significant reduction in sites will reduce
the technical and other support requirements of the BZPP, and that enhancing
the role of the PSAs should mitigate execution problems encountered in FY
2004 and FY 2005. Considering the decreased number of BZPP sites to
process, we concur that the PSAs might provide adequate technical assistance
to stakeholders.

Recommendation 10 is resolved – closed.

Recommendation 11: Provide state administrative agencies and responsible
jurisdictions web-based access to the grants management system to monitor
status of applications.

Management Comments: Management disagreed with this recommendation,
stating that this is not a feasible solution because neither IT solutions nor
funding are in place. Furthermore, providing the jurisdictions access would
not be consistent with other DHS grant programs. Management
recommended that we delete this recommendation.

OIG Analysis: Management responded that it is unable to act on this
recommendation in the manner suggested. However, in discussions of the
draft report, Directorate officials agreed that having a system capable of
allowing states to monitor the status of the BZPs they submitted is a “good
idea.” Although we did not assess the technical limitations or lack of
resources management noted, we recognize that expanded PSA support in the
field will reduce the role headquarters staff play in meeting stakeholders
informational needs during the BZP and VRPP development process. We
encourage program managers to seek other practical solutions that respond to
their stakeholders’ need to stay abreast of the status of BZP submission
documentation.




         Review of the Buffer Zone Protection Program
                            Page 36
Recommendation 11 is resolved – closed.

Recommendation 12 (revised): Provide Protective Security Advisors
sufficient access to the grants management system so they may better assist
states, state administrative agencies, and responsible jurisdictions to carry-out
the BZP and VRPP development and submission process.

Directorate Response: Management opposed the original wording of this
recommendation, stating that the role of the PSA is not and should not be
related to grants management, which is the role of the Preparedness Officer.
Implementing the recommendation would only further confuse roles and
responsibilities of the management personnel to the state and local
representatives. Preparedness Officers are the primary points of contact for all
grant-related questions. Additionally, PSAs do not have the grants experience
or expertise to effectively address questions or issues related to the grants
processes and program. Management recommended that the OIG amend the
recommendation to indicate that PSAs should refer all grant questions to the
appropriate Preparedness Officer.

OIG Analysis: We recognize that Preparedness Officers are the points of
contact for state agencies’ inquiries on grant applications or BZP and VRPP
approval status. We revised this recommendation to state more clearly that
the PSAs support the BZPP and VRPP development and submission process.
The intent of this recommendation is to ensure that the PSAs are adequately
informed about the status of BZP plans so they might better assist responsible
jurisdictions to bring submitted documents into compliance with program
requirements. This is a PSA role that has been described by program
managers.

In discussions of the draft report, program managers stated that having a
system capable of allowing PSAs to monitor the status of the submitted BZPs
has merit, but will require additional resources to implement. We encourage
program managers to seek other practical solutions that will allow the PSAs to
be kept informed of the status of BZP submission documentation and to
respond to their stakeholders’ technical support needs.

Recommendation 12 is resolved - closed.




         Review of the Buffer Zone Protection Program
                            Page 37
Appendix A
Purpose, Scope and Methodology


Our objectives were to determine the efficacy of the process used to identify
BZPP assets and the adequacy of eligibility criteria used to determine
investments at critical infrastructure and key resource sites. We examined the
utility of the BZPs and VRPPs, and the extent to which authorized equipment
purchases are designed to reduce vulnerabilities in areas surrounding CI/KR
sites. We also reviewed future plans for the program.

We took an in-depth look at the BZPP grant program activity in California,
the District of Columbia, Georgia, Illinois, and Virginia. In these four states
and the District of Columbia, we interviewed the officers of responsible
jurisdictions that developed the BZPs, VRPPs, and grant application materials.
We met with state homeland security agency and other state administrative
agency officials in the five visited locations to discuss the BZP and VRPP
development and submission process and follow-up. We interviewed G&T
and RMD officials who manage the BZPP grants and distribute funds, and we
met with National Protection and Programs Directorate staff working in the
field with state and responsible jurisdictions. We also met with contractors
who provide substantial support to the BZPP. We analyzed 412 BZPs and
VRPPs submitted by California, Georgia, Illinois, and Virginia, and collected
and analyzed data related to the equipment approval and purchasing process.
Furthermore, we identified the current plans and future status of the BZPP
program with relevant department officials.

We conducted our review between March 2006 and September 2006 under the
authority of the Inspector General Act of 1978, as amended, and according to
the Quality Standards for Inspections issued by the President’s Council on
Integrity and Efficiency.




         Review of the Buffer Zone Protection Program
                            Page 38
Appendix B
Management Response to Draft




         Review of the Buffer Zone Protection Program
                            Page 39
Appendix B
Management Response to Draft




         Review of the Buffer Zone Protection Program
                            Page 40
Appendix B
Management Response to Draft




         Review of the Buffer Zone Protection Program
                            Page 41
Appendix B
Management Response to Draft




         Review of the Buffer Zone Protection Program
                            Page 42
Appendix B
Management Response to Draft




         Review of the Buffer Zone Protection Program
                            Page 43
Appendix B
Management Response to Draft




         Review of the Buffer Zone Protection Program
                            Page 44
Appendix B
Management Response to Draft




         Review of the Buffer Zone Protection Program
                            Page 45
Appendix B
Management Response to Draft




         Review of the Buffer Zone Protection Program
                            Page 46
Appendix B
Management Response to Draft




         Review of the Buffer Zone Protection Program
                            Page 47
     Appendix C
     BZPP Plan – VRPP
     Equipment Selection Comparison



                                                                        Equipment

  Equipment Listed in BZPP Recommended Enhancements                     Requested in
                        (Sec. 8.4)                                         VRPP


                                              UNIT
          ITEM               QUANTITY                     TOTAL
                                              PRICE
Enhanced security light            1         $500,000    $500,000
system
Enhanced security                  1              $1M            $1M
CCTV camera system w/
anomaly based software
Ballistic resistant trash         100           $1,000   $100,000
containers
Protective fencing                 2            $4,000      $8,000
systems w/ screening
Electronic access control          1          $10,000     $10,000
system
Intrusion detection                1          $10,000     $10,000
system
Chemical/biological                1         $100,000    $100,000
detection system
Anti-vehicle bollard               1          $50,000     $50,000
system
Night Vision Scope                 1            $9,386      $9,386             X
Explosive storage                  1            $7,000      $7,000             X
magazine
Small explosive                    1             $800            $800          X
magazine day box
Tactical entry helmets             60            $137       $8,243             X
Tactical entry nape pads           60              $19      $1,144             X
All-terrain CBRNE                  1            $8,460      $8,460             X
vehicle
Equipment trailer                  1            $1,295      $1,295             X
Digital cameras                    5            $2,000    $10,000              X
Camcorders                         4             $350       $1,400             X
CBRNE Gas Mask Filters             25              $24           $600          X
Gas Mask Bags                      25              $24           $600          X
Gas Mask Adapter                   25              $24           $600          X
                                                                          VRPP total:
                                         BZPP Total: $1,827,528
                                                                           $49,528


                  Review of the Buffer Zone Protection Program
                                     Page 48
                      Appendix D
                      Major Contributors to This Report
__________________________________________________________________________________________

                     William McCarron, Chief Inspector, Department of Homeland Security,
                     Office of Inspections

                     Jim O’Keefe, Senior Inspector, Department of Homeland Security, Office of
                     Inspections

                     Megan McNeely, Inspector, Department of Homeland Security, Office of
                     Inspections




                              Review of the Buffer Zone Protection Program
                                                 Page 49
Appendix E
Report Distribution


Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
Executive Secretary
Assistant Secretary for Legislative and Intergovernmental Affairs
Assistant Secretary for Public Affairs
Assistant Secretary for Policy
Deputy Under Secretary for National Protection and Programs
Assistant Secretary for Infrastructure Protection
General Counsel
Chief Security Officer
Chief Privacy Officer
Management OIG Liaison
National Preparedness Directorate Audit Liaison
National Protection and Programs Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
Management Program Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




          Review of the Buffer Zone Protection Program
                             Page 50
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
